TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     The Homeland Security Presidential
                 Directive 12 Program Office Has Addressed
                  Prior Weaknesses, but Progress Is Slower
                        Than What Has Been Reported



                                         June 25, 2009

                            Reference Number: 2009-20-084




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 June 25, 2009


 MEMORANDUM FOR ACTING CHIEF, AGENCY-WIDE SHARED SERVICES

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – The Homeland Security Presidential Directive 12
                              Program Office Has Addressed Prior Weaknesses, but Progress Is
                              Slower Than What Has Been Reported (Audit # 200920001)

 This report presents the results of our review to determine whether the Homeland Security
 Presidential Directive 12 (HSPD-12) 1 Program Management Office (PMO) is making adequate
 progress in implementing the HSPD-12 requirements and has addressed the recommendations
 we made in our prior report. 2 The Internal Revenue Service (IRS) has been designated as the
 lead bureau for ensuring that the Department of the Treasury (Treasury) complies with the
 Directive. This audit was included in the Treasury Inspector General for Tax Administration
 Fiscal Year 2009 Annual Audit Plan and was part of our statutory requirement to annually
 review the adequacy and security of IRS technology.

 Impact on the Taxpayer
 The HSPD-12 established a new standard for issuing and maintaining identification badges for
 Federal Government employees entering Federal Government facilities and accessing computer
 systems. The HSPD-12 PMO is making slow progress in issuing the badges to employees and
 contractors. In addition, the number of badges that have been issued is less than what has been
 reported to the Office of Management and Budget (OMB) and to Treasury officials. Issuing the
 HSPD-12 badges is critical to improving the future security over Treasury facilities, computer


 1
   Policy for a Common Identification Standard for Federal Employees and Contractors (signed by President Bush
 on August 27, 2004). This Directive requires all Federal Government agencies to meet standards for issuing
 identification badges that will be used for entering Federal Government facilities and accessing computer systems.
 2
   Lack of Proper IRS Oversight of the Department of the Treasury HSPD-12 Initiative Resulted in Misuse of Federal
 Government Resources (Reference Number 2008-20-030, dated December 14, 2007).
                  The Homeland Security Presidential Directive 12 Program Office
                              Has Addressed Prior Weaknesses, but
                        Progress Is Slower Than What Has Been Reported


systems, and critical processes, such as collecting tax revenues, issuing refunds, and processing
economic stimulus payments to taxpayers.

Synopsis
The HSPD-12 PMO is using the General Services Administration’s (GSA) shared services
provider, or Managed Service Office, 3 to produce the HSPD-12 badges. This strategy was
adopted due to a recommendation in our first audit 4 of the Treasury HSPD-12 program and
because the OMB rejected the Treasury’s first implementation plan, which showed that the
Treasury was planning to produce its own identification badges.
The shared services provider and the HSPD-12 PMO are making slow progress in implementing
the HSPD-12 directive. As of January 30, 2009, the shared services provider and the Treasury
had issued 58,858 (46 percent) badges out of the total Treasury population of 127,922 employees
and contractors. However, many of the challenges and delays are out of the direct control of the
PMO. For example, the Treasury Enterprise Directory Services identification numbers that are
given to seasonal employees when they are rehired at the start of each filing season cause
conflicts in the shared services provider’s computer system.
This slow progress in issuing the HSPD-12 badges is of concern because the number of badges
issued each month is decreasing by a significant amount. The number of badges issued to
employees and contractors decreased 55 percent from October to November 2008, 38 percent in
December 2008, and 28 percent in January 2009. The HSPD-12 program manager attributes the
latest cause for the slow progress to the priority that the IRS filing season has over other
initiatives such as the HSPD-12 program.
In addition, the HSPD-12 PMO has not accurately reported the slow progress and downward
trend in the number of badges being issued. On October 27, 2008, the PMO reported to the
OMB that 76,575 (73 percent) 5 of the Treasury employees and contractors had been issued
badges. However, we determined that only 32 percent of the badges had been actually issued by
that date. The inaccurate reporting was partially due to the PMO defining “issued” as
“sponsored, adjudicated, and enrolled.” Many more employees and contractors are sponsored,
adjudicated, and enrolled than are actually issued badges.
The gap between enrollments and issuances is due to challenges experienced in activating and
issuing a badge after an employee or contractor is enrolled. As noted in the PMO’s

3
  See Appendix IV for a glossary of terms.
4
  Progress Has Been Slow in Meeting Homeland Security Presidential Directive-12 Requirements (Reference
Number 2007-20-110, dated June 20, 2007).
5
  The PMO calculated the 73 percent completion by using a total Treasury population of 104,520. This population
improperly excluded seasonal employees and contractors who had not yet been issued badges. The total population
of employees and contractors was 127,922. We used this number for our calculations.
                                                                                                              2
               The Homeland Security Presidential Directive 12 Program Office
                           Has Addressed Prior Weaknesses, but
                     Progress Is Slower Than What Has Been Reported


November 2008 presentation to the HSPD-12 Executive Steering Committee, employees and
contractors often work in different locations other than where the enrollment stations are located.
Therefore, the employee or contractor must make an appointment to travel a second time to the
enrollment station to finalize the credentialing process and obtain a badge. Another reason cited
is a lack of incentive for employees and contractors to complete the badge issuance process
because the badges are not currently needed to access Treasury facilities and computer systems.
In addition to improperly defining the term “issued,” the HSPD-12 PMO excluded a significant
number of contractors and seasonal employees from the total population of individuals who are
required to be issued a badge. Contractors cannot be easily issued badges because their personal
identity information cannot be uploaded as a group into the GSA shared services provider’s
computer system and must be manually entered. Issuing badges to seasonal employees is also a
challenge due to the conflict, discussed previously, between the GSA shared services provider’s
computer system and the Treasury Enterprise Directory Services identification numbers.
The PMO has taken corrective actions to address our prior audit recommendations. HSPD-12
tasks are now clearly delineated by functional area to better monitor contractor performance, the
PMO and the Contracting Officer’s Technical Representatives are complying with IRS
procedures for reviewing and paying contractors’ invoices, and the program manager maintains
documentation sufficient to support all program costs, assigns costs to specific tasks in the work
breakdown structure, and uses earned value to measure progress. The PMO coordinated with the
Treasury to evaluate the possibility of combining its Public Key Infrastructure efforts with those
of the GSA and is now following the Enterprise Life Cycle.

Recommendations
To ensure progress is clearly and accurately reported, the HSPD-12 Executive Steering
Committee should instruct the HSPD-12 program manager to 1) continue reporting the program
as being behind schedule and report to the OMB a revised estimated date that all employees and
contractors will be issued badges, and 2) define badges issued as badges that have been activated
and given to employees or contractors, report to the OMB the total cumulative number of badges
that have been issued to employees and contractors, and include all contractors and seasonal
employees in the total Treasury population, as long as these individuals are employed by the
Treasury.

Response
IRS management disagreed with all of our recommendations. In response to our first
recommendation, the IRS stated that it adjusted its schedule, revised its estimated completion
date to March 2010, and reported this date to the OMB. The IRS stated that its schedule is now


                                                                                                  3
               The Homeland Security Presidential Directive 12 Program Office
                           Has Addressed Prior Weaknesses, but
                     Progress Is Slower Than What Has Been Reported


on target to meet the March 2010 completion date. In response to our second recommendation,
the IRS provided the following comments:
   (1) The IRS stated that its current definition and methodology are already well understood,
       established, and circulated within the Treasury and the OMB. To maintain consistency
       and clarity, it will continue to use its current definition of “issued.” The IRS further
       stated that our auditors had not demonstrated that our definition of “issued’ is the proper
       one. In working with the GSA Managed Service Office, the IRS has received
       documentation supporting its definition and provided this information to our audit team
       during our visits.
   (2) The IRS stated that the Treasury already reports its progress to the Executive Steering
       Committee and to the OMB each quarter. It will continue to report both the number of
       enrollments and the number of activations in accordance with its existing definition.
   (3) The IRS stated that when the Treasury reported its progress on October 27, 2008,
       seasonal employees who had enrolled were included in the total population and those
       who had not enrolled were omitted. Because the seasonal employees were already
       furloughed and had not yet returned, they were not considered employees during that
       time. Effective March 13, 2009, the IRS made a business decision to stop the enrollment
       and activation of all seasonal employees. In addition, the IRS stated that technical
       challenges prevented mass sponsorship, enrollment, and adjudication of contractors. The
       Treasury HSPD-12 PMO has not implemented a means for bulk uploading of contractor
       information into the GSA shared service provider database as was done for Treasury
       employees. The IRS further stated that, at this time, it is premature to include contractors
       in its count. Once a viable solution is implemented, contractors will be added to
       Treasury’s overall population.
Management’s complete response to the draft report is included as Appendix V.

Office of Audit Comment
While the IRS disagreed with our first recommendation, statements in its management response
indicate that it took corrective actions to address the recommendation. The HSPD-12 PMO
revised the estimated completion date to March 2010 and reported this new date to the OMB.
We continue to believe the progress being reported to the OMB is overstated and provide the
following comments to the IRS’ response to our second recommendation.
   (1) The PMO defining “issued” as employees and contractors who have been “sponsored,
       adjudicated, and enrolled” is inaccurate and significantly overstates the progress of the
       HSPD-12 program. We used the common definition of the word “issued” and do not
       believe that qualifying or expanding its meaning is appropriate. The audit team did not

                                                                                                     4
               The Homeland Security Presidential Directive 12 Program Office
                           Has Addressed Prior Weaknesses, but
                     Progress Is Slower Than What Has Been Reported


       receive documentation from the PMO to support the IRS definition of “issued” even
       though the audit team requested this documentation several times during the audit. As
       for the GSA Managed Service Office’s support for the IRS’ definition of “issued,” we
       note that the GSA Managed Service Office provides the card issuance service for the IRS
       and the Treasury and has a vested interest in the success of the program. For this reason,
       we do not believe the GSA Managed Service Office should be the authority on defining
       when a badge is considered issued.
   (2) We continue to believe the reporting of the program progress to the OMB should be
       based on the number of activations (i.e., how many HSPD-12 badges have been issued to
       employees and contractors), not the number of enrollments. The intent of the HSPD-12
       Directive was for Federal Government employees and contractors to actually have
       HSPD-12 badges in their possession as a form of identification. The fact that an
       employee or contractor has enrolled in the program should not be reported to the OMB as
       a badge having been issued.
   (3) In October 2008, the HSPD-12 PMO knew that approximately 20,000 seasonal
       employees would begin returning to work at the IRS. At that point, the PMO planned to
       issue badges to the seasonal employees. Therefore, seasonal employees should have been
       included in the total Treasury population. The Treasury has the authority to make a
       risk-based decision on whether to issue an HSPD-12 badge to a seasonal employee and
       the IRS exercised this authority in March 2009 when it decided that it would no longer
       attempt to issue badges to seasonal employees. However, the OMB requires HSPD-12
       badges to be issued to contractors and there is no authority for excluding contractors from
       the HSPD-12 program. Therefore, we continue to believe that the IRS should include
       contractors in the total Treasury population. The technical difficulties in issuing badges
       to contractors does not justify excluding them from the Treasury population.
Because we believe the IRS’ disagreements to our findings and recommendations are significant,
we plan on elevating our concerns to the Department of the Treasury. We request that the
Deputy Commissioner for Operations Support ensures that the IRS Commissioner submits a
written reply to the Assistant Secretary for Management and Chief Financial Officer of the
Department of the Treasury within 30 calendar days of the final report issuance date.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Acting Assistant Inspector General for Audit (Security and Information
Technology Services) at (202) 622-8510.




                                                                                                5
                     The Homeland Security Presidential Directive 12 Program Office
                                 Has Addressed Prior Weaknesses, but
                           Progress Is Slower Than What Has Been Reported




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Treasury HSPD-12 Program Management Office Is
          Making Slow Progress Implementing the HSPD-12 Directive ....................Page 4
                    Recommendation 1:........................................................Page 7

          The Number of HSPD-12 Badges Issued to Employees and
          Contractors Is Fewer Than What Has Been Reported to
          the Office of Management and Budget and Treasury Officials....................Page 8
                    Recommendation 2: ............................................................ Page 10

          The Treasury HSPD-12 Program Management Office Took
          Corrective Actions to Address Prior Audit Recommendations ....................Page 12

Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 16
          Appendix II – Major Contributors to This Report ........................................Page 18
          Appendix III – Report Distribution List .......................................................Page 19
          Appendix IV – Glossary of Terms................................................................Page 20
          Appendix V – Management’s Response to the Draft Report .......................Page 22
          The Homeland Security Presidential Directive 12 Program Office
                      Has Addressed Prior Weaknesses, but
                Progress Is Slower Than What Has Been Reported




                          Abbreviations

GSA                 General Services Administration
HSPD-12             Homeland Security Presidential Directive 12
IRS                 Internal Revenue Service
OMB                 Office of Management and Budget
PKI                 Public Key Infrastructure
PMO                 Program Management Office
                    The Homeland Security Presidential Directive 12 Program Office
                                Has Addressed Prior Weaknesses, but
                          Progress Is Slower Than What Has Been Reported




                                               Background

On August 27, 2004, President Bush signed Homeland Security Presidential Directive 12
(HSPD-12), Policy for a Common Identification Standard for Federal Employees and
Contractors. This Directive established a new standard for issuing and maintaining
identification badges for Federal Government employees entering Federal Government facilities
and accessing computer systems. The Office of Management and Budget (OMB), which is
responsible for overseeing implementation of the Directive, required agencies to verify and/or
complete employee background investigations and issue the personal identity verification badges
by the following deadlines:
      •    October 27, 2007 – Agencies must verify and/or complete background investigations and
           issue identification badges to all employees with 15 or fewer years of service.
      •    October 27, 2008 – Agencies must verify and/or complete background investigations and
           issue badges to all employees with more than 15 years of service.
To implement the Directive, the Internal Revenue Service (IRS) established an HSPD-12 project
team in September 2005. In January 2006, the IRS Commissioner volunteered the IRS to lead
the Department of the Treasury (Treasury) HSPD-12 program efforts and deliver a
Department-wide solution. The Treasury agreed and, in March 2006, the IRS assumed
leadership of the HSPD-12 Program Management Office (PMO).
The PMO faces a significant amount of work to comply with the Directive and issue
identification badges to approximately 128,000 Treasury employees and contractors. The IRS,
which is the largest of 11 Treasury bureaus, has more than 660 facilities located throughout the
nation. In addition, the IRS hires approximately 19,500 seasonal employees 1 each year to work
during the filing season. The scope of the HSPD-12 implementation work includes:
      •    Enrollment – Employees must be fingerprinted and photographed, and their identities
           must be verified. The enrollment process qualifies the employee to receive an
           identification badge. The employee makes an appointment to return to the enrollment
           station at a later date to obtain his or her badge.
      •    Badge Printing and Finalization – The identification badge must be encoded and
           printed to comply with all HSPD-12 standards, including the encryption of personal data
           on the badges. Each badge is printed with an employee’s photograph and other
           identifiable information. If the badge is acceptable, it is activated and issued to the
           employee or contractor.

1
    See Appendix IV for a glossary of terms.
                                                                                            Page 1
               The Homeland Security Presidential Directive 12 Program Office
                           Has Addressed Prior Weaknesses, but
                     Progress Is Slower Than What Has Been Reported



information on our audit objectives, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                        Page 3
                   The Homeland Security Presidential Directive 12 Program Office
                               Has Addressed Prior Weaknesses, but
                         Progress Is Slower Than What Has Been Reported




                                     Results of Review

The Treasury HSPD-12 Program Management Office Is Making Slow
Progress Implementing the HSPD-12 Directive
The OMB recognized that Federal Government agencies were experiencing difficulties in
meeting the October 27, 2008, HSPD-12 completion deadline. In an October 2007
memorandum, 4 the OMB instructed agencies to confirm their implementation plans were on
schedule or submit revised plans detailing when implementation efforts would be completed. In
January 2008, the PMO submitted a revised implementation plan with a March 31, 2009,
estimated completion date. However, this revised completion date will not be met, and the PMO
revised its completion date for a second time to June 30, 2009. As of February 2, 2009, the PMO
estimated that 84 percent of the badges would be issued by June 30, 2009. This estimate
indicates that approximately 20,000 out of a total population of 127,922 employees and
contractors would not have an HSPD-12 badge. Most of these unissued badges would be for
contractors and IRS seasonal employees.
Based on the slow progress in issuing badges to employees and contractors, we believe this third
completion date will also be difficult to meet. As illustrated in Figure 1, identification badges
had been issued to only 58,858 (46 percent) of the total 127,922 employees and contractors by
the end of January 2009.




4
    Memorandum M-08-01, HSPD-12 Implementation Status, dated October 23, 2007.
                                                                                           Page 4
                                              The Homeland Security Presidential Directive 12 Program Office
                                                          Has Addressed Prior Weaknesses, but
                                                    Progress Is Slower Than What Has Been Reported



                                                   Figure 1: Cumulative Number of Badges Issued to
                                                         Treasury Employees and Contractors

                                    130,000

                                    120,000

                                    110,000
     Number of Treasury Employees




                                    100,000

                                     90,000

                                     80,000

                                                                                                                                      43%      46%
                                     70,000
                                                                                                                             39%      54,950   58,858
                                     60,000
                                                                                                                   32%       49,550
                                     50,000
                                                                                                                   40,821
                                     40,000
                                                                                                          17%
                                     30,000
                                                                                                          21,512
                                                                                                  6.7%
                                     20,000
                                              0.00%             0.07%    0.6%   1.3%     1.4%     8,527
                                                       0.01%
                                     10,000
                                                                         800    1,625    1,818
                                               2        16       93
                                        -
                                              Feb-08   Mar-08   Apr-08   May-08 Jun-08   Jul-08   Aug-08 Sep-08     Oct-08   Nov-08 Dec-08     Jan-09

                                                                Cumulative Number and Percentage of Badges Issued

  Source: Treasury HSPD-12 PMO status report dated January 30, 2009.

In addition to the slow progress in issuing the new HSPD-12 badges, the number of badges
issued each month is decreasing by a significant percentage. The number of badges issued
decreased by 55 percent from October to November 2008, 38 percent in December 2008, and
28 percent in January 2009. Figure 2 illustrates the downward trend in the number of badges
issued during these 3 months.




                                                                                                                                                        Page 5
                              The Homeland Security Presidential Directive 12 Program Office
                                          Has Addressed Prior Weaknesses, but
                                    Progress Is Slower Than What Has Been Reported



                                     Figure 2: HSPD-12 Badges Issued by Month

                       25,000


                                                                                             49%
                                                                                            19,285
                       20,000
       Badges Issued




                       15,000                                                       94%
                                                                                   12,963
                                                                                                     -55%
                                                                                                     8,716
                       10,000
                                                                          3,370%
                                                                           6,698                             - 38%
                                                                                                             5,394   - 28%
                        5,000                                                                                        3,908

                                                     808%   17%
                                       600%   450%                 -76%
                                                      699   818
                                 2      14      77                 193
                          -
                                Feb-08 Mar-08 Apr-08 May-08 Jun-08 Jul-08 Aug-08 Sep-08 Oct-08 Nov-08 Dec-08 Jan-09

                                     Number of Badges Issued Each Month and Percentage Change From Prior Month

    Source: Treasury HSPD-12 PMO status report dated January 30, 2009.

The causes for the slow progress are due to numerous challenges experienced by the GSA shared
services provider and the PMO. Many challenges and delays are out of the direct control of the
PMO, such as:
   •      Negotiations with the National Treasury Employee Union caused a 4-month delay. IRS
          union employees could not be enrolled in the GSA shared services provider’s computer
          system until the negotiations were completed. A Memorandum of Understanding was
          finally signed with the Union on May 30, 2008.
   •      Some of the GSA shared services provider’s contractors have occasionally not shown up
          to work at the enrollment stations. The Treasury employees would arrive at the
          enrollment stations to find the shared services provider’s contractor was not available to
          enroll or issue the new identification badge.
   •      The GSA shared services provider improperly printed some identification badges. For
          example, the “concealed weapons carrier” indicator for the Treasury’s law enforcement
          employees was not printed on some of the badges. This mistake caused a 4-month delay
          and approximately 3,000 badges had to be reprinted and reissued.

                                                                                                                      Page 6
               The Homeland Security Presidential Directive 12 Program Office
                           Has Addressed Prior Weaknesses, but
                     Progress Is Slower Than What Has Been Reported



   •   The quality of the photograph on some badges was too poor to recognize some
       employees. Approximately 1,000 pictures had to be retaken, reprinted, and reissued.
       This issue caused a 3-month delay.
   •   A GSA requirement to limit batch uploads of employee personal data to the GSA badge
       issuance database caused a 2-month backlog. The PMO could upload only
       1,000 employee records at a time. Each batch upload required 2 hours to process.
   •   The Treasury Enterprise Directory Services identification numbers that are given to
       seasonal employees when they are rehired at the start of each filing season causes
       conflicts in the database used by the GSA shared services provider to enroll and activate
       the badges.
In addition to the above challenges, the HSPD-12 program manager reported that the IRS filing
season is causing additional delays in issuing the badges. The most critical tax administration
processes such as processing taxpayers’ payments, tax returns, and refunds take priority over
other work during the filing season.
Issuing the HSPD-12 badges is critical to improving future security over Treasury facilities,
computer systems, and critical processes, such as collecting tax revenues, issuing refunds, and
processing economic stimulus payments to taxpayers.

Recommendation
Recommendation 1: The HSPD-12 Executive Steering Committee should instruct the
HSPD-12 program manager to continue to report the program as being behind schedule and
report to the OMB a revised estimated date that all employees and contractors will be issued
badges.
       Management’s Response: The IRS disagreed with this recommendation. The IRS
       stated that, in January 2009, it appeared that the schedule could fall behind due to the
       decrease in IRS card issuance activities. The IRS has adjusted the schedule and publicly
       posted the report to the OMB web site, updating the completion date to March 2010. At
       this time, the completion schedule is currently on target to meet the revised completion
       date.
       Office of Audit Comment: While the IRS stated that it disagreed with this
       recommendation, statements in its management response indicate that it took corrective
       action to address the recommendation. The HSPD-12 PMO revised the completion date
       to March 2010 and reported this new completion date to the OMB. When we completed
       our fieldwork in February 2009, we asked the program manager why the HSPD-12
       Program Review presentation to the Executive Steering Committee showed the
       program’s overall status as “green,” which indicated the program was on schedule. The
       program manager informed us that the program’s schedule and cost performance
                                                                                           Page 7
                 The Homeland Security Presidential Directive 12 Program Office
                             Has Addressed Prior Weaknesses, but
                       Progress Is Slower Than What Has Been Reported



        indicators would be changed from “green” to “red” status in the February 2009 Program
        Review to indicate the program was behind schedule.

The Number of HSPD-12 Badges Issued to Employees and
Contractors Is Fewer Than What Has Been Reported to the Office of
Management and Budget and Treasury Officials
The HSPD-12 PMO reports the progress, status, and challenges of the program to the HSPD-12
Executive Steering Committee. The Committee, made up of executives from Treasury bureaus,
was established in March 2006 to provide oversight and to support the Directive’s
implementation across the Treasury and all of its bureaus. The Committee is chaired by the IRS
Deputy Commissioner for Operations Support and the Treasury Chief Information Officer. The
PMO also prepares status reports to IRS executives who brief the OMB on the Treasury’s
implementation efforts.
On October 31, 2008, the OMB, in a special communication 5 to Federal Government agencies,
commended the Treasury, along with the National Aeronautics and Space Administration, for
their implementation progress on the HSPD-12. The HSPD-12 PMO relayed this special
commendation in subsequent briefings and presentations to IRS and Treasury officials. On
November 25, 2008, the PMO reported to the HSPD-12 Executive Steering Committee that
67 percent of the badges had been issued as of October 27, 2008. Although this completion
percentage is 6 percent lower than what was originally reported to the OMB, it was significantly
overstated. In its report to the Committee, the PMO also made the following citations.
        “According to the 10/27/08 OMB Report, Treasury issued more cards than all other
        agencies of comparable size.”
        “Treasury produced more cards than any other GSA customer.”
        “Treasury was one of two agencies receiving special recognition from [the] OMB.”
The PMO continued to report significant progress during its January 2009 presentation to the
HSPD-12 Executive Steering Committee. The PMO also reported that the project was on
schedule.
Contrary to what has been reported by the HSPD-12 PMO to the OMB, the Treasury, and the
IRS, we believe the HSPD-12 PMO inaccurately reported the progress that had been achieved in
issuing badges to employees and contractors. On October 27, 2008, the PMO reported to the




5
 OMB Reports Significant HSPD-12 Implementation Progress but Areas for Improvement Identified, OMB web site
http://www.whitehouse.gov/omb/pubpress/2008/103108_hspd12.html, dated October 31, 2008.
                                                                                                   Page 8
                  The Homeland Security Presidential Directive 12 Program Office
                              Has Addressed Prior Weaknesses, but
                        Progress Is Slower Than What Has Been Reported



OMB that 76,575 (73 percent) 6 of the total Treasury employees and contractors had been issued
HSPD-12 identification badges. However, the actual number of badges issued was significantly
lower. As previously presented in Figure 1, the Treasury had issued 40,821 (32 percent) of the
identification badges by the end of October 2008.
The inaccurate reporting of implementation progress was caused by the PMO defining “issued”
as “sponsored, adjudicated, and enrolled.” The program manager informed us that the OMB
instructed agencies to consider a badge issued when the employee or contractor had been
sponsored, adjudicated, and enrolled. Despite our repeated requests, the program manager was
unable to provide the documentation of this OMB guidance. Because many more employees and
contractors have been sponsored, adjudicated, and enrolled than have actually been issued
badges, the PMO was able to report a significantly higher completion percentage. As of
January 30, 2009, approximately 87,000 employees and contractors were sponsored, adjudicated,
and enrolled but only 58,858 badges had been issued.
We disagree with the program manager’s definition of “issued.” It is our opinion that the intent
of HSPD-12 was for Federal Government employees and contractors to actually have HSPD-12
identification badges in their possession as a form of identification. The fact that an employee
has enrolled in the HSPD-12 program should not constitute the completed task of being issued an
HSPD-12 badge. As such, the PMO should count a badge as issued only when the employee or
contractor returns to the enrollment station to finalize the badge issuance process.
As noted in its November 2008 presentation to the HSPD-12 Executive Steering Committee, the
PMO has cited challenges in activating and issuing a badge after an employee or contractor is
enrolled. For example, employees and contractors often work in different locations than where
the enrollment stations are located. Therefore, the employee or contractor must make an
appointment to travel a second time to the enrollment station to finalize the credentialing process
and obtain a badge. Another reason cited was a lack of incentive for employees and contractors
to complete the badge issuance process because the badges are not currently needed to access
Treasury facilities and computer systems.
In addition to using an incorrect definition of the term “issued,” the PMO excluded many
contractors from the total population of individuals who are required to have an HSPD-12 badge.
The PMO excluded the contractors because they could not easily be issued badges due to
limitations in the GSA shared services provider’s computer system. The personal identity
information for contractors cannot be uploaded into the system as a group like employee
information can. The information must be input manually, which is a labor intensive process.
The GSA shared services provider had issued badges to 274 (3 percent) contractors out of a total
population of 9,431 as of January 30, 2009.

6
 The PMO calculated the 73 percent completion by using a total Treasury population of 104,520. This population
improperly excluded seasonal employees and contractors who had not yet been issued badges. The total population
of employees and contractors was 127,922. We used this number for our calculations.
                                                                                                        Page 9
               The Homeland Security Presidential Directive 12 Program Office
                           Has Addressed Prior Weaknesses, but
                     Progress Is Slower Than What Has Been Reported



The PMO also excluded many seasonal employees from the total population of individuals who
are required to have an HSPD-12 badge because issuing badges to seasonal employees is also a
challenge. As previously discussed, the Treasury Enterprise Directory Services identification
numbers that are given to seasonal employees when they are rehired at the start of each filing
season causes conflicts in the GSA shared services provider’s USAccess database, which is used
to enroll and activate the badges. The GSA shared services provider had issued badges to
6,263 (32 percent) seasonal employees out of the total population of 19,514 as of
January 30, 2009.
Contractors and seasonal employees access IRS facilities and computer systems and present the
same security risk as full-time employees. To ensure security and fulfill the intent of the
HSPD-12, contractors and seasonal employees must be issued HSPD-12 badges. Therefore, the
PMO should include these workers in the total population of individuals who are required to
have a badge.
The significance of the HSPD-12 program and the level of attention given to issuing HSPD-12
badges to employees and contractors require the HSPD-12 PMO to ensure the status of the
program is clearly and accurately reported to IRS, Treasury, and OMB officials. Inaccurate
reporting could affect management decision making and provide a false sense of
accomplishment.

Recommendation
Recommendation 2: To ensure conservative transparent reporting, the HSPD-12 Executive
Steering Committee should instruct the HSPD-12 PMO to 1) define badges issued as badges that
have been activated and given to employees or contractors, 2) report to the OMB the total
cumulative badges issued to employees and contractors, and 3) include all contractors and
seasonal employees in the total Treasury population as long as these individuals are employed by
the Treasury.
       Management’s Response: The IRS disagreed with this recommendation.
       (1) The IRS stated that its current definition and methodology are already well
           understood, established, and circulated throughout the Treasury HSPD-12 PMO,
           Executive Steering Committee, and the OMB. To maintain consistency and clarity,
           the IRS will continue to use its current definition of “issued.” The IRS further stated
           that our auditors had not demonstrated that our definition of “issued” is the proper
           one. In working with the GSA Managed Service Office, the IRS has received
           documentation supporting its definition and provided this information to our audit
           team during our visits.




                                                                                           Page 10
        The Homeland Security Presidential Directive 12 Program Office
                    Has Addressed Prior Weaknesses, but
              Progress Is Slower Than What Has Been Reported



(2) The IRS stated that the Treasury already reports its progress to the Executive Steering
    Committee and the OMB each quarter. It will continue to report both the number of
    enrollments and the number of activations in accordance with its existing definition.
(3) The IRS stated that when the Treasury reported its progress on October 27, 2008,
    seasonal employees who had enrolled were included in the total population and those
    who had not enrolled were omitted. Because the seasonal employees were already
    furloughed and had not yet returned, they were not considered employees during that
    time. Effective March 13, 2009, the IRS made a business decision to stop the
    enrollment and activation of all seasonal employees. In addition, the IRS stated that
    technical challenges prevented mass sponsorship, enrollment, and adjudication of
    contractors. The Treasury HSPD-12 PMO has not implemented a means for bulk
    uploading of contractor information into the GSA shared service provider database as
    was done for Treasury employees. The IRS further stated that, at this time, it is
    premature to include contractors in its count. Once a viable solution is implemented,
    contractors will be added to Treasury’s overall population.
Office of Audit Comment: We continue to believe the progress reported to the OMB
is overstated and provide the following comments to the IRS’ response to our second
recommendation.
(1) The PMO defining “issued” as employees and contractors who have been “sponsored,
    adjudicated, and enrolled” is inaccurate and significantly overstates the progress of
    the HSPD-12 program. We used the common definition of the word “issued” and do
    not believe that qualifying or expanding its meaning is appropriate. The audit team
    did not receive documentation from the PMO to support the IRS definition of
    “issued” even though the audit team requested this documentation several times
    during the audit. The audit manager requested this documentation on two occasions
    near the end of field work, once on February 5, 2009, during a teleconference with the
    program manager and his or her staff, and again during an onsite meeting on
    February 17, 2009, with the program manager. On both occasions, the program
    manager informed the auditors that he or she would provide documentation of the
    OMB guidance that instructed agencies to consider badges “issued” if the employee
    or contractor had been “sponsored, adjudicated, and enrolled.” The OMB guidance
    was not provided. As for the GSA Managed Service Office’s support for the IRS’
    definition of “issued,” we note that the GSA Managed Service Office provides the
    card issuance service for the IRS and the Treasury, and has a vested interest in the
    success of the program. For this reason, we do not believe the GSA Managed Service
    Office should be the authority on defining when a badge is considered issued.
(2) We continue to believe the reporting of the program progress to the OMB should be
    based on the number of activations (i.e., how many HSPD-12 badges have been
    issued to employees and contractors), not the number of enrollments. The intent of

                                                                                   Page 11
                  The Homeland Security Presidential Directive 12 Program Office
                              Has Addressed Prior Weaknesses, but
                        Progress Is Slower Than What Has Been Reported



            the HSPD-12 Directive was for Federal Government employees and contractors to
            actually have HSPD-12 badges in their possession as a form of identification. The
            fact that an employee or contractor has enrolled in the HSPD-12 program should not
            be reported to the OMB as a badge having been issued.
        (3) In October 2008, the HSPD-12 PMO knew that approximately 20,000 seasonal
            employees would begin returning to work at the IRS. At that point, the PMO planned
            to issue badges to the seasonal employees. Therefore, seasonal employees should
            have been included in the total Treasury population. The Treasury has the authority
            to make a risk-based decision on whether to issue an HSPD-12 badge to a seasonal
            employee and the IRS exercised this authority in March 2009 when it decided that it
            would no longer attempt to issue badges to seasonal employees. However, the OMB
            requires HSPD-12 badges to be issued to contractors and there is no authority for
            excluding contractors from the HSPD-12 program. Therefore, we continue to believe
            the IRS should include contractors in the total Treasury population. The technical
            difficulties in issuing badges to contractors does not justify excluding them from the
            Treasury population.

The Treasury HSPD-12 Program Management Office Took Corrective
Actions to Address Prior Audit Recommendations
In our prior audit report, 7 we made five recommendations to improve the management of the
HSPD-12 program. We recommended that the Chief, Agency-Wide Shared Services:
    •   Require that future task orders prepared by the PMO clearly separate tasks by function.
        This recommendation was intended to help each contractor understand the tasks and
        enable the PMO to monitor the contactor’s performance.
    •   Ensure Contracting Officer’s Technical Representatives comply with procedures that
        require sufficient supporting documentation for hours worked.
    •   Ensure the HSPD-12 program manager maintains documentation that is sufficient to
        support all program costs and assigns costs to specific tasks in the work breakdown
        structure.
    •   Coordinate with the Treasury to evaluate the possibility of combining its Public Key
        Infrastructure (PKI) efforts with those of the GSA.
We also recommended that the Chief Information Officer ensure executive steering committees
responsible for providing oversight to information technology projects take an active role to


7
 Lack of Proper IRS Oversight of the Department of the Treasury HSPD-12 Initiative Resulted in Misuse of Federal
Government Resources (Reference Number 2008-20-030, dated December 14, 2007).
                                                                                                       Page 12
               The Homeland Security Presidential Directive 12 Program Office
                           Has Addressed Prior Weaknesses, but
                     Progress Is Slower Than What Has Been Reported



1-year period from the 2 largest HSPD-12 contracts, Booz Allen Hamilton and Presidio
Networked Solutions, and found that the invoices were accurate and adequately supported. The
program manager or the deputy program manager provided written approval to the Contracting
Officer’s Technical Representative prior to payment of the invoice. In addition, we compared
the deliverables and work listed in the invoice to the program manager’s work breakdown
structure and determined the tasks and deliverables had been planned.

The program manager maintains documentation sufficient to support all program
costs, assigns costs to specific tasks in the work breakdown structure, and uses
earned value to measure progress
Preparing a work breakdown structure is a basic project management technique for defining and
organizing the total scope of a program and reporting progress. It should identify what should be
done, who will do it, how long it will take, and how much the program will cost. The work
breakdown structure should also allow the program manager to calculate earned value, which
provides an objective measure of the budget and schedule performance of the program.
In our last audit, we found that the PMO did not maintain documentation to support program
costs and did not assign costs to planned tasks. In addition, the program’s work breakdown
structure did not include the planned costs and resources that are needed to complete the
program’s milestones and deliverables.
The program manager has taken corrective actions to address the inadequate accounting and
weaknesses in the work breakdown structure. Documentation is now being maintained to
support the costs. Costs are included in the work breakdown structure and assigned to planned
tasks, and earned value is being calculated and reported to the HSPD-12 Executive Steering
Committee on a regular basis by the program manager.

The PMO coordinated with the Treasury to evaluate the possibility of combining
its PKI efforts with those of the GSA
The HSPD-12 identification badges are required to be resistant to tampering, prevent identity
fraud, and provide electronic authentication of the person holding the badge. A core element of
this security is the inclusion of PKI technology on the badges. In our last audit, we found that
the GSA and the Treasury were developing separate PKI strategies. To ensure consistency and
reduce duplication of effort, we recommended that the PMO coordinate with the GSA to
determine the feasibility of developing one PKI solution.
The PMO coordinated with the GSA and considered the following three alternatives:
   •   Adopt the GSA’s PKI service.
   •   Use a combination of the GSA and Treasury PKI services.
   •   Use the Treasury PKI service.

                                                                                         Page 14
                The Homeland Security Presidential Directive 12 Program Office
                            Has Addressed Prior Weaknesses, but
                      Progress Is Slower Than What Has Been Reported



Each alternative has benefits and could affect the program’s schedule, cost, and use of the
identification badges. After considering each alternative, the PMO determined the better
long-term benefit was to use the Treasury PKI service. The GSA agreed that the Treasury PKI
certificates were compatible with the identification badges that are used by the GSA shared
services provider.

The PMO is now following the Enterprise Life Cycle
The Enterprise Life Cycle is the life cycle methodology that provides the standard processes and
techniques the IRS must follow to implement business change and support information systems
programs, such as the HSPD-12 program. The Enterprise Life Cycle is based on best practices
found in government and industry and enables the IRS to establish and follow repeatable
processes that yield better results over the long run.
In our last audit, we found that the PMO was not following the Enterprise Life Cycle. The PMO
had not completed a business case for the HSPD-12 implementation efforts. The PMO should
have submitted a business case to the HSPD-12 Executive Steering Committee, which is
responsible for overseeing the HSPD-12 PMO’s implementation efforts.
The PMO has taken effective actions to address our recommendations and is now following the
Enterprise Life Cycle. A comprehensive business case was completed. This business case
accurately reflects the status and significant details of the program. The actual and planned costs
are consistently reported in the various sections of the business case, and earned value is
calculated and presented in the appropriate section of the document. The PMO is also updating
the business case, as required, when new events or significant activities impact the program.




                                                                                           Page 15
                  The Homeland Security Presidential Directive 12 Program Office
                              Has Addressed Prior Weaknesses, but
                        Progress Is Slower Than What Has Been Reported



                                                                                                Appendix I

        Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to determine whether the HSPD-12 1 PMO is making
adequate progress in implementing the HSPD-12 requirements and has addressed the
recommendations we made in our prior report. 2 To accomplish our objectives, we:
I.      Determined whether the HSPD-12 PMO has made adequate progress in implementing the
        HSPD-12 requirements.
        A. Determined whether the project has been “re-baselined” (changed the planned costs,
           schedule, deliverables, and milestones) during the past 12 months.
        B. Determined how the actual costs were tracked.
        C. Compared the OMB deadlines to the estimated project completion date.
        D. Determined causes for any project delays.
II.     Determined whether the PMO has clearly delineated tasks by functional area to better
        monitor contractor performance. We identified the contracts and task orders 3 and
        determined whether the tasks and deliverables were clearly identified and whether
        separate task orders were used for HSPD-12 work or if HSPD-12 tasks were combined
        with task orders for non-HSPD-12 tasks.
III.    Determined whether the PMO and the Contracting Officer’s Technical Representatives
        were complying with IRS procedures for reviewing and paying contractors’ invoices.
        A. Determined the population of HSPD-12 contractor invoices.
        B. Determined whether the hours billed on contractor invoices were adequately
           supported, compared the deliverables and work listed on the invoices to the work
           breakdown structure to determine whether the expenditures were planned, determined
           whether the Contracting Officer’s Technical Representatives received a written
           certification from the program manager indicating the hours billed on the invoices
           were acceptable for the work performed, and determined whether invoices are paid


1
  Policy for a Common Identification Standard for Federal Employees and Contractors (signed by President Bush
on August 27, 2004). This Directive requires all Federal Government agencies to meet standards for issuing
identification badges that will be used for entering Federal Government facilities and accessing computer systems.
2
  Lack of Proper IRS Oversight of the Department of the Treasury HSPD-12 Initiative Resulted in Misuse of Federal
Government Resources (Reference Number 2008-20-030, dated December 14, 2007).
3
  See Appendix IV for a glossary of terms.
                                                                                                         Page 16
              The Homeland Security Presidential Directive 12 Program Office
                          Has Addressed Prior Weaknesses, but
                    Progress Is Slower Than What Has Been Reported



         only after a written certification is received from the program manager approving the
         payments. We reviewed the monthly invoices submitted by one contractor (Presidio
         Networked Solutions) for Fiscal Year 2008 and the monthly invoices from another
         contractor (Booz Allen Hamilton) for the period December 2007 through
         November 2008.
IV.   Determined whether the HSPD-12 program manager maintains documentation that is
      sufficient to support all program costs, assigns costs to specific tasks in the work
      breakdown structure, and uses earned value to measure progress.
      A. Reviewed documentation for all actual and obligated program costs.
      B. Determined actual and obligated program costs for contractors’ work.
      C. Reviewed the program’s current work breakdown structure to determine whether it
         identified the tasks, dependencies, milestones, deliverables, and costs needed to
         satisfy the HSPD-12 goals.
      D. Determined whether earned value is being calculated and reported to the HSPD-12
         Executive Steering Committee on a regular basis by the program manager. We
         evaluated and verified the most current earned value calculations and assessed the
         budget and schedule status of the project. We also determined whether earned value
         and other progress information are regularly reported to the Committee and other
         governance boards.
V.    Determined whether the PMO coordinated with the Treasury to evaluate the possibility of
      combining PKI efforts with those of the GSA.
VI.   Determined what management actions have been taken to enforce the use of the
      Enterprise Life Cycle.
      A. Identified the improvements that have been made to key project management
         processes.
      B. Reviewed the most recent business case and determined whether it was reasonably
         complete and compared actual and planned costs to the costs in the work breakdown
         structure. We reviewed the business case for consistency of costs throughout
         different sections of the business case and reviewed the “summary of spending” table
         and the justifications and alternative strategies in the business case.
      C. Reviewed the project reports presented to the HSPD-12 Executive Steering
         Committee and other governance boards to determine whether the reports reflect the
         project’s status and compliance with the Enterprise Life Cycle.
      D. Reviewed the HSPD-12 Executive Steering Committee charter to determine whether
         it has been updated to strengthen the Committee’s oversight responsibilities.

                                                                                       Page 17
               The Homeland Security Presidential Directive 12 Program Office
                           Has Addressed Prior Weaknesses, but
                     Progress Is Slower Than What Has Been Reported



                                                                               Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Acting Assistant Inspector General for Audit (Security and Information
Technology Services)
Kent Sagara, Acting Director
William A. Gray, Audit Manager
David Brown, Senior Auditor
Michelle Griffin, Senior Auditor
Thomas Nacinovich, Senior Auditor




                                                                                       Page 18
              The Homeland Security Presidential Directive 12 Program Office
                          Has Addressed Prior Weaknesses, but
                    Progress Is Slower Than What Has Been Reported



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Technology Officer OS:CTO
Chief Information Officer OS:CIO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Acting Chief, Agency-Wide Shared Services OS:A
       Chief Technology Officer OS:CTO
       Chief Information Officer OS:CIO




                                                                       Page 19
                The Homeland Security Presidential Directive 12 Program Office
                            Has Addressed Prior Weaknesses, but
                      Progress Is Slower Than What Has Been Reported



                                                                              Appendix IV

                             Glossary of Terms

             Term                                       Definition
Adjudication                  Refers to an applicant’s background investigation as having
                              been completed; the applicant is cleared to receive a badge.
Business Case                 Illuminates and clarifies key details such as viable alternatives
                              to the implementation strategy, planned and actual costs,
                              earned value, and other significant details that are critical for
                              decision making.
Contracting Officer’s         Responsible for the contract award and administration
Technical Representative      process, this person must ensure all terms and conditions of
                              the contracts he or she manages are met and taxpayer dollars
                              are prudently spent.
Earned Value                  A required management system that compares the work the
                              project team has finished so far with the estimates made at the
                              beginning of the project.
Enrollment                    The process where the applicant is fingerprinted,
                              photographed, and his or her identity is verified. The
                              enrollment process qualifies the applicant to receive a badge.
Enterprise Life Cycle         Establishes a set of repeatable processes and a system of
                              reviews, checkpoints, and milestones that reduce the risks of
                              system development and ensures alignment with the overall
                              business strategy. All IRS personnel and contractors involved
                              in information technology efforts are required to follow the
                              Enterprise Life Cycle.
Filing Season                 The period from January through mid-April when most
                              individual income tax returns are filed.
HSPD-12 Executive Steering    A committee made up of executives from Treasury bureaus to
Committee                     provide oversight and support implementation efforts. It is
                              chaired by the IRS Deputy Commissioner for Operations
                              Support and the Treasury Chief Information Officer.



                                                                                       Page 20
              The Homeland Security Presidential Directive 12 Program Office
                          Has Addressed Prior Weaknesses, but
                    Progress Is Slower Than What Has Been Reported



             Term                                      Definition
Managed Service Office      Provides Federal Government agencies with interoperable
                            identity management and credentialing solutions that provide
                            end-to-end services to enroll applicants, issue credentials, and
                            manage the lifecycle of these credentials. The GSA Managed
                            Service Office is the executive agent responsible for
                            managing Government-wide acquisition of information
                            technology to implement HSPD-12 services.
Public Key Infrastructure   An encryption system of digital certificates and other
                            authorities that verify and authenticate the validity of each
                            party involved in an electronic transaction.
Seasonal Employees          Employees hired by the IRS in November of each year and
                            trained prior to the start of the filing season.
Sponsored                   An applicant is sponsored when his or her personal
                            information is input into the GSA shared services provider’s
                            computer system.
Task Order                  An order for services placed against an established contract.
Work Breakdown Structure    A deliverable-oriented grouping of project elements that
                            organizes and defines the total scope of the project.




                                                                                     Page 21
   The Homeland Security Presidential Directive 12 Program Office
               Has Addressed Prior Weaknesses, but
         Progress Is Slower Than What Has Been Reported



                                                     Appendix V

Management’s Response to the Draft Report




                                                           Page 22
The Homeland Security Presidential Directive 12 Program Office
            Has Addressed Prior Weaknesses, but
      Progress Is Slower Than What Has Been Reported




                                                        Page 23
The Homeland Security Presidential Directive 12 Program Office
            Has Addressed Prior Weaknesses, but
      Progress Is Slower Than What Has Been Reported




                                                        Page 24
The Homeland Security Presidential Directive 12 Program Office
            Has Addressed Prior Weaknesses, but
      Progress Is Slower Than What Has Been Reported




                                                        Page 25
